May 11, 2020
Honorable Scott S. Harris
Clerk, Supreme Court of the United States
One First Street NE
Washington, DC 20543
Re:

No. 19-1203, Children’s Hospital Association of Texas et al. v.
Alex M. Azar II, et al.
Brief Amicus Curiae of New Civil Liberties Alliance
Supporting Petitioners
CERTIFICATE OF SERVICE

Dear Mr. Harris:
I, Aditya Dynar, counsel for Amicus Curiae, do hereby declare that on May 11,
2020, as required by Supreme Court Rule 29.5, I have served by first-class mail, postage
pre-paid, the Brief Amicus Curiae of New Civil Liberties Alliance Supporting Petitioners
on counsel for each party to the above proceeding. All parties required to be served have
been served as per the attached Service List.
Executed on May 11, 2020.

Aditya Dynar
Counsel for Amicus Curiae

1225 19th Street NW Suite 450, Washington DC 20036 (202) 869-5210

www.NCLAlegal.org

NCLA
Page 2 of 2

SERVICE LIST
Counsel for Petitioners:
David B. Salmons
Counsel of record
Morgan, Lewis & Bockius LLP
1111 Pennsylvania Ave. NW
Washington, DC 20004
(202) 739-3000 | David.Salmons@MorganLewis.com
Counsel for Respondent:
Noel J. Francisco
Counsel of record
U.S. Department of Justice
950 Pennsylvania Ave. NW
Washington, DC 20530
(202) 514-2217 | SupremeCtBriefs@usdoj.gov

